                     UNITED STATES GOVERNMENT                         LIBRARY OF CONGRESS
                   Memorandum                                       Office of the Inspector General


  TO:            James Billington                                                  March 14, 2008
                 Librarian of Congress

  FROM:          Karl W. Schornagel
                 Inspector General

  SUBJECT:       Progress Review: Copyright Office Reengineering
                 OIG Project Number 2001-IT-304


  In September 2000, the Copyright Office embarked on a multi-year business process reengineering
  initiative. This initiative was intended to improve the efficiency and effectiveness of its public
  service.

  The backbone of the new business process is a web-based system which will enable most
  users to enter and maintain copyright applications online, thus saving time and resources.
  The new system, dubbed "eCO," has been built and several of its components are now in the
  most critical phase in a system's development life cycle: beta testing. This phase gives both
  users and Copyright staff an opportunity to use the system and work out bugs before system
  development ends. The next step will be to turn the system on for all users.

 We have been monitoring the reengineering process since inception. We have issued
 memoranda from time to time detailing current progress and our assessment of the
 process. During this critical phase, we have intensified our review. We have:

            - met with Copyright staff;
            - requested information and statistics on beta testing outcomes; and
            - analyzed the statistics provided by Copyright.

As a result of our efforts, we were able to make recommendations for improvements to the
beta testing process, such as:

           - correlating the help desk logs and functionalities currently being tested;
           - collecting more detail in certain areas reported as problems by users
We believe that our recommendations will result in an improved beta testing process; this
will provide Copyright management increased assurance that eCO will function as
intended when deployed.

At this time, we believe that the beta testing phase is proceeding appropriately and that
no further action is required on our part until full beta testing results become available.
We will continue to monitor the process and report again at the conclusion of beta
testing.


cc:    Register of Copyrights
       Chief Operating Officer
